No. 19-608

 

IN THE

Supreme Court of the United States

MARK ELSTER AND SARAH PYNCHON,
Petitioners,

v.

THE CITY OF SEATTLE,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae American Association of Christian Schools and Association of Christian
Schools International contains 2,479 _ words, excluding the parts of the brief that
are exempted by Supreme Court Rule 33.1(d).

Executed on January 8, 2020

GREG S. BAYLOR

ALLIANCE DEFENDING FREEDOM
440 First Street NW, Suite 600
Washington, DC 20001

(202) 393-8690
